Audit of USAID/Washington’s Classified
Administrative Support Service Contractors

Audit Report Number 9-000-03-008-P

September 17, 2003




      U.S. Agency for International Development
                  Washington, D.C.
September 17, 2003

MEMORANDUM
FOR:          M/OP Director, Timothy T. Beans

FROM:         IG/A/PA Director, Nathan S. Lokos /s/

SUBJECT:      Audit of USAID/Washington’s Classified Administrative
              Support Service Contractors (Report No. 9-000-03-008-P)

This memorandum transmits our final report on the subject audit. In
finalizing the report, we considered your comments on our draft report and
have included your response as Appendix II.

The report contains one recommendation to improve contractor compliance
related to security. In your written comments, you concurred with the
recommendation and identified planned actions to address our concerns.
Consequently, we consider the recommendation to have received a
management decision. Information related to your final action on the
recommendation should be provided to USAID’s Office of Management
Planning and Innovation.

I want to express my sincere appreciation for the cooperation and courtesies
extended to my staff during the audit.
This page intentionally left blank.




                                      2
Table of   Summary of Results                                             5
Contents   Background                                                     5

           Audit Objective                                                6

           Audit Findings:                                                6

                  Did USAID/Washington ensure that selected
                  classified contractors that provide administrative
                  support services complied with security requirements?   6

                         Office of Procurement Needs to Ensure
                         Compliance With All Security Related
                         Requirements of Contracts                        7

           Management Comments and Our Evaluation                         9

           Appendix I - Scope and Methodology                             11

           Appendix II - Management Comments                              13




                                                                               3
This page intentionally left blank.




                                      4
Summary of   Administrative support service contractors1 provide a wide variety of useful
Results      services that play an important role in helping agencies to accomplish their
             missions. An administrative support service contractor is a non-personal
             service contractor2 who provides USAID/Washington offices with
             administrative and technical support for USAID/Washington’s administrative
             and program related activities. (See page 5.)

             As part of the Office of Inspector General's multi-year strategy for auditing
             procurement activities, the Performance Audits Division of the Office of
             Inspector General conducted this audit to determine whether
             USAID/Washington ensured that selected classified contractors who provide
             administrative support services complied with the security requirements of
             their contracts. (See page 6.)

             USAID generally ensured that selected classified contractors providing
             administrative support services complied with security requirements.
             However, the Office of Procurement lacked an adequate internal control
             system to ensure that all contractors were complying with the security
             requirements relating to visitation letters, termination letters, security training,
             and the return of USAID building passes. (See pages 6 and 7.)

             This report includes one recommendation to assist the Office of Procurement in
             adopting practices to improve contractor compliance with the security
             requirements for administrative support services contracts. (See page 9.)

             The Office of Procurement concurred with the recommendation and described
             planned actions to implement the recommendation. Based on the Office of
             Procurement’s written comments, we consider that a management decision has
             been reached. Management’s comments are included in their entirety in
             Appendix II. (See page 9.)



Background   Administrative support service contractors provide a wide variety of useful
             services that play an important role in helping agencies to accomplish their

             1
               A service contract is a contract that directly engages the time and effort of a contractor
             whose primary purpose is to perform an identifiable task rather than to furnish an end item of
             supply. A service contract may be either a non-personal or personal contract. It can also
             cover services performed by either professional or nonprofessional personnel whether on an
             individual or organizational basis. See Federal Acquisition Regulation 37, Subpart 37.1.
             2
              A non-personal services contractor is a contractor, who, while rendering the services, is not
             subject, either by the contract term or by the manner of its administration to the supervision
             and control usually prevailing in relationships between the Government and its employees.
             See FAR 37, Subpart 37.1.



                                                                                                         5
                  missions. An administrative support service contractor is a non-personal
                  service contractor who provides USAID/Washington offices with
                  administrative and technical support for USAID/Washington’s administrative
                  and program related activities. Agencies use these contractors to acquire
                  special knowledge and skills not available in the government, to obtain cost
                  effective services, and to obtain temporary or intermittent services.

                  Administrative support service contracts exist in many USAID bureaus and
                  are designed to provide essential support for program activities. USAID
                  reported that there were 116 of these contracts during fiscal year 2002 that
                  were considered classified, which required security clearances. Referred to as
                  institutional contracts, they provide contractor personnel who advise and assist
                  in preparing, for example, project papers and internal reports. They also
                  provide services such as secretarial and janitorial support and other
                  administrative support for program-funded personnel, which can include
                  planning and conducting conferences. Individuals performing work under
                  these arrangements remain employees of their parent contractor organizations.


Audit Objective   The Office of Inspector General's Performance Audits Division conducted this
                  audit to answer the following audit objective:

                  Did USAID/Washington ensure that selected classified contractors that
                  provide administrative support services complied with security
                  requirements?

                  This audit was initiated for the following reasons: (1) USAID’s increasing
                  reliance on administrative support service contractors; (2) the Office of
                  Inspector General’s focus on USAID’s awarding and administering contracts;
                  and (3) the Office of Federal Procurement Policy Letter 93-1, “Management
                  Oversight of Service Contracting,” which encourages inspectors general to
                  conduct assessments of agencies’ use of support service contracts.

                  Appendix I contains a complete discussion of the scope and methodology for the
                  audit.


Audit Findings    Did USAID/Washington ensure that selected classified contractors that
                  provide administrative support services complied with security
                  requirements?

                  USAID/Washington generally ensured that selected classified contractors that
                  provide administrative support services complied with security requirements.
                  However, there were several instances of noncompliance with regards to four
                  separate security requirements.



                                                                                                6
The National Industrial Security Program3 requires all federal agencies to ensure
that their classified4 contractors maintain certain security standards and follow
specified procedures. For all tested classified contractors, USAID included the
federally mandated security related requirements in the contracts. As part of
these requirements, USAID completed the required DD Form 2545 for all
sampled contracts. Additionally, all tested contractor employees in the sampled
contracts had signed the required Standard Form 3126.

However, for the sampled contracts, there were several instances of
noncompliance concerning visitation letters, termination letters, security training,
and the return of USAID building passes. These issues are discussed below.

The Office of Procurement Needs to Ensure Compliance
With All Security Related Requirements of Contracts

There were several instances of non-compliance with contractual security
regulations. In five of the six contractors that we examined, out of a total of 116
classified contractors reported by USAID, there were noncompliance issues for
contractor employees concerning four separate security requirements. This
occurred because the Office of Procurement did not have an adequate internal
control system to ensure contractor compliance. As a result, the strength of
USAID’s otherwise well-designed security procedures relating to their classified
contractors was weakened.

The National Industrial Security Program requires all federal agencies to ensure
that their classified contractors maintain certain security standards and follow
specified procedures. USAID incorporated these requirements, as well as certain
requirements on DD Form 254, in all six of the contracts that we examined.
These procedures included, but were not limited to, the following:

3
  Executive Order 12829 (dated January 6, 1993) established a National Industrial Security
Program to safeguard federal government classified information that is released to
contractors. This program is applicable to all executive departments and agencies, and
required the development of the “National Industrial Security Program Operating Manual”
(NISPOM), which prescribes requirements, restrictions and safeguards that are necessary to
protect classified information.
4
  Classified contractors are contractors that USAID has determined may have access to
classified information or classified areas of USAID, and, as a result, the contractor and their
employees need to have security clearances and follow procedures specified in the NISPOM.
5
  DD Form 254 entitled “Contract Security Classification Specification” specifies the
conditions for access to classified information under the contract.
6
  Standard Form 312 entitled “Classified Information Nondisclosure Agreement” prohibits
communication or transmission of classified information to any unauthorized person or
organization.



                                                                                             7
    •   The contractor must certify in writing in a visitation letter that the
        contract employee has signed an SF 312 and received an initial security
        briefing.

    •   Upon termination from the contract, the contractor must submit a
        termination letter, and immediately upon such termination, contractor
        employees must return the USAID building pass to USAID.

    •   The contractor shall provide all employees with security training and
        briefings commensurate with their access to classified information.

Federal Acquisition Regulations state that contracting officers are responsible for
ensuring compliance with the terms of the contracts. In fulfilling this
responsibility, contracting officers designate cognizant technical officers (CTO)
to assist in ensuring general contract compliance. With respect to security
requirements, CTOs work with the USAID Office of Security in ensuring that all
contractor security requirements are met, which includes issuing and canceling
badges, as well as ensuring that classified contractors have the appropriate
clearances before the badges are issued.

A sample of six contractors was used to determine whether USAID/Washington
ensured that the contractors were complying with the above-mentioned
requirements. An examination of a sample of employees from each of the six
contractors indicated that five contractors did not comply to varying degrees
with four selected security requirements as shown in the table below.

                            Testing Results for
               Compliance with Selected Security Requirements
     Description of
 Security Requirement                               Testing Results
Visitation Letter         •   Five contractors submitted visitation letters for all tested
Submitted by Contractor       employees.
                          •   One contractor did not submit a visitation letter for all tested
                              employees.
Termination Letter        •   Three contractors submitted termination letters for all tested
Submitted by Contractor       employees.
                          •   Three contractors did not submit termination letters for all tested
                              employees.
Contractor Provided       •   Two contractors provided training for all tested employees.
Required Security         •   One contractor relied on USAID to provide training to tested
Training                      employees, instead of providing its own training as required.
                          •   Three contractors did not provide the required security training
                              to tested employees
Employee Building         •   Two contractors returned building passes for all of tested
Passes Returned to            employees.
USAID                     •   Four contractors did not return building passes for all tested




                                                                                                8
                                            employees.

                 These instances of non-compliance arose because the Office of Procurement’s
                 internal control system was not adequate to ensure compliance with all security
                 requirements for classified contractors. CTOs did not ensure that the contractor
                 security officers were clearly aware of the detailed security requirements
                 specified in their contracts and in DD Form 254. Upon further analysis, it was
                 evident that the incidence of non-compliance was more prevalent in smaller
                 contractors who, due to their size, did not have an experienced full-time security
                 officer. CTOs also did not confirm that all required security documentation had
                 been completed.

                 As a result of this non-compliance, the security controls that USAID’s Office of
                 Security has put in place are weakened. Furthermore, these weakened controls
                 could possibly increase the risk of a lapse in security relating to USAID’s
                 records, information or facilities. In order to improve the level of compliance
                 with federal security requirements we have the following recommendation.

                        Recommendation No. 1: We recommend that USAID's
                        Office of Procurement, in coordination with the Office of
                        Security, establish procedures to require classified
                        contractors to comply with all security requirements of their
                        respective administrative support services contracts.




Management       In its response to our draft report, the Office of Procurement concurred with our
Comments and     recommendation. To address the recommendation, M/OP will issue a General
Our Evaluation   Notice and an annual reminder notice informing CTOs of their responsibilities
                 related to classified contractors. Additionally, M/OP will revise its CTO
                 appointment memorandums to include a section related to classified contractors,
                 as well as include a security component in the CTO certification program.

                 Based on the actions that M/OP has planned to address the recommendation, we
                 concluded that a management decision has been reached. Information related to
                 your final action on the recommendation should be provided to USAID’s Office
                 of Management Planning and Innovation.




                                                                                                 9
This page intentionally left blank.




                                      10
                                                                                      Appendix I

Scope and     Scope
Methodology
              We audited USAID/Washington’s compliance with selected regulations and
              guidance relating to selected classified administrative support service
              contractors (institutional contractors).      This audit was conducted in
              accordance with generally accepted government auditing standards. We
              conducted the audit fieldwork at USAID/Washington and at the offices of
              selected contractors from October 9, 2002 to July 24, 2003. The audit scope was
              limited to a review of selected classified contracts that were in effect in fiscal
              year 2002 and that were providing services to USAID/Washington.

              The scope of the audit included an examination of management controls
              associated with contractor compliance with security related requirements as
              specified in the contractors’ individual contracts. We selected a judgmental
              sample of six contracts out of a reported total of 116 classified contracts as of
              October 2002.

              Methodology

              In order to gain an understanding of USAID/Washington’s use of
              administrative support service contractors, we held discussions with USAID
              officials in the Office of Security, the Office of Procurement, and the Office
              of Human Resources. In addition, we held discussions with various contract
              officials of selected contractors.

              Specifically, to assess management controls, we performed the following:

              •       Reviewed relevant laws, regulations, guidance, and directives to gain a
                      better understanding of the compliance issues relating to
                      administrative support service contractors.

              •       Interviewed cognizant technical officers and officials from the Office
                      of Security to study and evaluate the Office of Procurement’s internal
                      control system for ensuring contractor compliance with security
                      requirements.

              •       Obtained and reviewed a listing of USAID's classified contractors
                      providing administrative support services.

              •       Reviewed a judgmental sample of individual contracts, DD Form
                      254s, the Defense Central Investigative Index, and Standard Form
                      312s.


                                                                                             11
•      Interviewed contractor facility security officers and examined
       contractor employee records concerning visitation letters, termination
       letters, training records, and the return of USAID building passes.

We set the materiality threshold for the audit at one contract with exceptions
out of our total sample of six contracts. The audit results did not place any
reliance on computer-generated data.




                                                                           12
                   This page intentionally left blank.        Appendix II


Management
Comments
                                        August 27, 2003


MEMORANDUM

FOR:         IG/A/PA., Mr. Nathan Lokos

FROM:        M/OP Director, Timothy T. Beans /s/

SUBJECT:     M/OP Response to USAID/Washington's Classified
             Administrative Support Service Contractors
             (Report No. 9-000-03-00X-P)


Under subject report, a recommendation was put forth recommending
that USAID's Office of Procurement, in coordination with the Office
of Security, establish procedures to require classified contractors
to comply with all security requirements of their respective
administrative support service contracts.

The Office of Procurement concurs with this recommendation and has
tasked its Office of Procurement Policy Division (M/OP/P) to
coordinate with the Office of Security to issue a General Notice
and an annual reminder notice informing the Agency's Cognizant
Technical Officials (CTOs) of their responsibilities related to
classified contractors. This General Notice is expected to be
issued within 30 days.

In addition, M/OP/P will revise its CTO appointment memorandums to
include a section related to the CTO's role related to classified
contractors and coordinate with the Office of Human Resources,
Learning Support Division to include a component in their CTO
certification program related to CTO security oversight
responsibilities. These actions are expected to be completed
within 90 days.




                                                                      13
This page intentionally left blank.

                                      Appendix II




                                              14
